U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Miller v. United States, No. 20-5840
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 22,
2020. The government’s response is now due, after one extension, on November 30, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 4, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5840
MILLER, JAMES ROBERT
USA

KATHERINE KIMBALL WINDSOR
LAW OFFICE OF KATHERINE KIMBALL
WINDSOR
65 N. RAYMOND AVE.
SUITE 320
PASADENA, CA 91103
213-663-9219
KATY@WINDSORLAW.US

